Certification of Word Count
No.
In the

Supreme Court of the United States
CHARLIE WILSON, AS EXECUTOR OF THE
ESTATE OF DEBRA WILSON, PETITIONER

v.
DALLAS COUNTY HOSPITAL DISTRICT d/b/a PARKLAND
HEALTH AND HOSPITAL SYSTEM, RESPONDENT

PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.l (h), I certify that
the document contains 4428 words, excluding the parts of
the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 9//2020

1910 Pacific Avenue
Suite 13000
Dallas, Texas
75201
(214) 451-0164

